-19CERTIFICATION OF SERVICE
The original and one copy of my Petition for Writ of Certiorari Limitation and
Statement of Certificate of Limitation was placed in the care of the United States
Postal Service, first class Priority Mail Tracking Insured Signature Requested
postage prepaid addressed to the United States Supreme Court 1 First Street North
East Washington D. C. 20543 Attention Clerk of Court this Twenty First (21st ) day
of January 2021 A. D.
One copy of my Petition for Writ of Certiorari Limitation and Statement of
Certificate of Limitation was placed in the care of the United States Postal Service,
first class Priority Mail Tracking Insured Signature Requested postage prepaid
addressed to the Court of Common Pleas Cuyahoga County, Ohio 1200 Ontario
Street Cleveland, Ohio 44113 to the attention of the Clerk of Court, this Twenty
First (21st ) day of January 2021 A. D.
One copy of my Petition for Writ of Certiorari Limitation and Statement of
Certificate of Limitation was placed in the care of the United States Postal Service,
first class Priority Mail Tracking Insured Signature Requested postage prepaid
addressed to the United States Department of Justice, 950 Pennsylvania Avenue,
North West Washington D. C., 2053-0001 to the attention of the United States
Attorney General William Barr, This Twenty First (21st ) day of January 2021 A, D.

-20-

One copy of my Petition for Writ of Certiorari Limitation and Statement of
Certificate of Limitation was placed in the care of the United States Postal Service,
first class Priority Mail Tracking Insured Signature Requested postage prepaid
addressed to the Ohio Attorney General Dave Yost, 150 Gay Street 21st Floor
Columbus, Ohio 43215 to the attention of Timothy X. McGrail, this Twenty First
(21st ) day of January 2021 A. D.
One copy of my Petition for Writ of Certiorari Limitation and Statement of
Certificate of Limitation was placed in the care of the United States Postal Service,
first class Priority Mail Tracking Insured Signature Requested postage prepaid
addresser to the Zashin & Rich Labor and Employment Law Firm 950 Main Avenue
4th Floor Cleveland, Ohio 44113 to the attention of Attorney Jeffrey J. Wedel, Lead
Attorney for the Respondents Dow Chemical Company, this Twenty First (21st ) day
of January 2021 A. D.
January 21, 2021 A. D.
Respectfully submitted by,

Randall G. Stephens,
Petitioner Pro se
P. O. Box 20051
Cleveland, Ohio 44120
(215) 536-1052

